U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Indian River County, Florida, et al. v. Department of Transportation, et al.
S.Ct. No. 19-1304

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 18,
2020, and placed on the docket on May 20, 2020. The government’s response is due on June 19,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 20, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-1304
INDIAN RIVER COUNTY, FLORIDA, ET AL.
DEPARTMENT OF TRANSPORTATIONM ET AL.

JEFFREY ALAN LAMKEN
MOLO LAMKEN LLP
THE WATERGATE
600 NEW HAMSPHIRE AVENUE, N.W.
WASHINGTON, DC 20037
202-556-2000
JLAMKEN@MOLOLAMKEN.COM
202-556-2001(Fax)

